                     National Science Foundation • Office of Inspector General
                     4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230


MEMORANDUM

Date:         September 26, 2013

To:           Mary F. Santonastasso, Director
              Division of Institution and Award Support

              Karen Tiplady, Director
              Division of Grants and Agreements

From:         Dr. Brett M. Baker
              Assistant Inspector General for Audit

Subject:      Audit Report No. OIG-13-1-004
              Cornell University

This memo transmits the Health and Human Services, Office of Inspector General’s (HHS OIG)
report for the audit of direct costs totaling      million charged by Cornell University to its
sponsored agreements with NSF during the period April 1, 2008 through June 30, 2011. The
audit objectives were to determine if (1) direct costs charged by Cornell to its NSF sponsored
agreements complied with applicable Federal requirements; (2) Cornell properly reported the
use of NSF funds awarded under the American Recovery and Reinvestment Act (Recovery Act);
and (3) NSF was liable for pension costs associated with the National Astronomy & Ionosphere
Center (NAIC) sponsored agreement.

The auditors determined that costs that Cornell charged to its NSF sponsored agreements did not
always comply with applicable Federal requirements. Specifically, the auditors estimate that
costs totaling $794,221 for supplies ($660,699), recharge centers ($75,312), general expenses
($34,085), foreign travel ($17,544), clerical and administrative salaries ($6,581), as well as
associated fringe benefits and facilities and administrative (F&A) costs were unallowable.
Cornell directly charged costs that should have been treated as F&A costs and also claimed costs
that were unrelated to the sponsored agreements, calculated incorrectly, unsupported, or not
approved by NSF. The auditors reported that these deficiencies occurred because Cornell did not
always adhere to its established policies and procedures for charging costs to NSF sponsored
agreements.

The auditors also found that Cornell had properly accounted for and segregated the Recovery Act
funds in its accounting system, and submitted accurate and timely quarterly Recovery Act
reports. However, the auditors found that $11,945 in unallowable costs (of the $794,221 in total
questioned costs) were charged to Recovery Act awards. Additionally, the auditors determined
that NSF was not liable for pension costs associated with the NAIC sponsored agreement
because it was Cornell’s practice to provide a defined-contribution plan, and as a result there is
no trailing cost.

The auditors recommended that NSF address and resolve the findings by requiring Cornell to
refund the questioned costs of $794,221 and adhere to its established policies and procedures for
charging costs to sponsored agreements with NSF. Cornell University, in its response dated
April 29, 2013, disagreed with the auditor’s two recommendations, however, the University
agreed that some of the questioned costs were unallowable. Cornell University’s response,
described in the report, is included in its entirety in Appendix E.

Appendix D contains a detailed summary of the unallowable sample items that were questioned.
Additional information concerning the questioned sample items was provided separately by OIG
to the Division of Institution and Award Support, Cost Analysis and Audit Resolution Branch.
Please coordinate with our office during the six month resolution period, as specified by OMB
Circular A-50, to develop a mutually agreeable resolution of the audit findings. Also, the
findings should not be closed until NSF determines that all recommendations have been
adequately addressed and the proposed corrective actions have been satisfactorily implemented.

OIG Oversight of Audit

To fulfill our responsibilities under generally accepted government auditing standards, the Office of
Inspector General:

      •   Reviewed HHS OIG’s approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with HHS OIG and NSF officials, as necessary, to discuss
          audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by HHS OIG to ensure compliance with generally
          accepted government auditing standards; and
      •   Coordinated issuance of the audit report.

HHS OIG is responsible for the attached auditor’s report on Cornell University and the
conclusions expressed in the report. We do not express any opinion on the conclusions presented
in HHS OIG’s audit report.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Jannifer Jenkins at 703-292-4996 or
Sherrye McGregor at 703-292-5003.

Attachment

cc:       Alex Wynnyk, Branch Chief, CAAR
          Dr. G. P. Peterson, NSB



                                                 2
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


    CORNELL UNIVERSITY
      CLAIMED FEDERAL
    REIMBURSEMENT FOR
UNALLOWABLE COSTS RELATED
 TO SPONSORED AGREEMENTS
     WITH THE NATIONAL
    SCIENCE FOUNDATION




                       James P. Edert
                  Regional Inspector General

                       September 2013
                        A-02-12-02004
                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



The organization for whom this report was prepared may distribute the
report at its discretion.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS.
                                      EXECUTIVE SUMMARY

 Cornell University claimed $794,221 for unallowable costs related to its sponsored
 agreements with the National Science Foundation.


WHY WE DID THIS REVIEW

The National Science Foundation (NSF) requested that we review its sponsored agreements with
Cornell University (Cornell) during the period April 1, 2008, through June 30, 2011. Specifically,
NSF requested that we determine if (1) direct costs charged to the agreements by Cornell
complied with applicable Federal requirements, (2) Cornell properly reported the use of funds
awarded under the American Recovery and Reinvestment Act of 2009 (Recovery Act), and
(3) NSF was liable for pension costs associated with the National Astronomy and Ionosphere
Center (NAIC) sponsored agreement.

Our objectives were to determine if: (1) direct costs charged by Cornell to its NSF sponsored
agreements complied with applicable Federal requirements; (2) Cornell properly reported the use
of NSF funds awarded under the Recovery Act; and (3) NSF was liable for pension costs
associated with the NAIC sponsored agreement.

BACKGROUND

NSF received $3 billion under the Recovery Act. Of that, $2.5 billion was allocated for science
and engineering research and related activities (e.g., education, training, and acquisition and
development of research instrumentation). The Recovery Act required recipients to report on
their use of funds not later than 10 days after the end of each calendar quarter. The reports must
include, among other things, the total amount of Recovery Act funds received, funds expended,
project status, and the number of jobs created or retained.

Cornell is a private research university located in Ithaca, New York. During the period
April 1, 2008, through June 30, 2011, Cornell claimed reimbursement totaling              for
direct costs charged to      sponsored agreements with NSF including a sponsored agreement
awarded to operate the NAIC observatory located in Arecibo, Puerto Rico.

Principles for determining the allowability of expenditures charged to sponsored agreements
with Cornell and other educational institutions are set forth in 2 CFR pt. 220, Cost Principles for
Educational Institutions (Office of Management and Budget Circular A-21). These cost
principles apply to both direct costs—expenses incurred solely for the performance of a
particular sponsored agreement—and to facilities and administrative (F&A) costs—indirect
expenses incurred for common or joint objectives of the institution that cannot be readily and
specifically identified with a particular sponsored agreement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)              i
HOW WE CONDUCTED THIS REVIEW

Our audit covered direct costs totaling $               charged by Cornell to its sponsored
agreements with NSF during the period April 1, 2008, through June 30, 2011. Specifically, we
reviewed 614 statistically selected sample items from           expenditures, totaling
$               The sample items consisted of supplies, recharge center expenditures, general
expenditures, foreign travel, clerical and administrative salaries, and cost transfers. We also
reviewed 100 judgmentally selected sample items from             other salary expenditures, totaling
$             We calculated fringe benefits and/or F&A costs associated with sample items that
we determined to be unallowable. Therefore, our estimate of unallowable costs includes both
direct costs and applicable fringe benefits and/or F&A costs.

WHAT WE FOUND

Cornell charged some costs to its NSF sponsored agreements that did not always comply with
applicable Federal requirements. Specifically, we estimate that Cornell charged costs totaling
$794,221 – $660,699 for supplies, $75,312 for recharge centers, $34,085 for general expenses,
$17,544 for foreign travel, and $6,581 for clerical and administrative salaries – as well as
associated fringe benefits and F&A costs that were unallowable. Cornell directly charged these
costs that should have been treated as F&A costs and also claimed costs that were unrelated to
the sponsored agreements, calculated incorrectly, unsupported, or not approved by NSF. These
deficiencies occurred because Cornell did not always adhere to its established policies and
procedures for charging costs to NSF sponsored agreements.

We also found that Cornell properly accounted for and segregated NSF Recovery Act funds in its
accounting system, and submitted accurate and timely quarterly Recovery Act reports. However,
we found that Cornell charged unallowable costs totaling $11,945 to its Recovery Act awards.
In addition, NSF was not liable for pension costs associated with the NAIC sponsored agreement
because it was Cornell’s practice to provide a defined-contribution plan, and as a result there is
no trailing cost.

WHAT WE RECOMMEND

We recommend that NSF address and resolve our findings by requiring Cornell to:

    •   refund $794,221 to the Federal Government and

    •   adhere to its established policies and procedures for charging costs to sponsored
        agreements with NSF.

CORNELL UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cornell disagreed with our two recommendations;
however, it agreed some of the costs identified in our draft report were unallowable.
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)               ii
Specifically, Cornell agreed that costs associated with 26 of the 86 questioned transactions
should be returned to the Federal Government but stated that the remaining 60 transactions
represented allowable costs that should be accepted. Cornell provided a detailed justification of
its position for each of the 60 transactions. However, Cornell did not provide any new
documentation or other information in its comments that we had not already considered. Cornell
also stated that the limited number of unallowable costs found during our review provides
support that the University has sound policies and procedures in place and is adhering to them.

After reviewing Cornell’s comments on our draft report, we maintain that our findings are valid.
The detailed justifications provided by Cornell did not support that the questioned transactions
complied with applicable Federal requirements. However, we revised our recommended
recovery to reflect additional documentation supporting foreign travel charges that Cornell
provided prior to the receipt of written comments.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)       iii
                                                    TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

         Why We Did This Review ...............................................................................................1

         Objectives .........................................................................................................................1

         Background ......................................................................................................................1
               American Recovery and Reinvestment Act of 2009 .............................................1
               Cornell University .................................................................................................2
               National Astronomy and Ionosphere Center .........................................................2
               Cost Principles for Educational Institutions ..........................................................2

         How We Conducted This Review...................................................................................2

FINDINGS ..................................................................................................................................3

         Unallowable Costs ...........................................................................................................3
               Supplies .................................................................................................................3
               Recharge Centers ...................................................................................................4
               General Expenses ..................................................................................................4
               Foreign Travel .......................................................................................................5
               Clerical and Administrative Salaries .....................................................................5

         Conclusion ........................................................................................................................5

RECOMMENDATIONS...........................................................................................................5

CORNELL UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE.............................................................6

APPENDIXES

           A: Audit Scope and Methodology ................................................................................7

           B: Statistical Sampling Methodologies........................................................................9

           C: Sample Results and Estimates ................................................................................20

           D: Unallowable Sample Items ......................................................................................24

           E: Cornell University Comments ................................................................................30

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                                                         iv


                                                                                                          .
                                              INTRODUCTION

WHY WE DID THIS REVIEW

The National Science Foundation (NSF) requested that we review its sponsored agreements with
Cornell University (Cornell) during the period April 1, 2008, through June 30, 2011. Specifically,
NSF requested that we determine if (1) direct costs charged to the agreements by Cornell
complied with applicable Federal requirements, 1 (2) Cornell properly reported the use of funds
awarded under the American Recovery and Reinvestment Act of 2009 (Recovery Act), and
(3) NSF was liable for pension costs associated with the National Astronomy and Ionosphere
Center (NAIC) sponsored agreement.

OBJECTIVES

Our objectives were to determine if: (1) direct costs charged by Cornell to its NSF sponsored
agreements complied with applicable Federal requirements; (2) Cornell properly reported the use
of NSF funds awarded under the Recovery Act; and (3) NSF was liable for pension costs
associated with the NAIC sponsored agreement.

BACKGROUND

American Recovery and Reinvestment Act of 2009

NSF received $3 billion under the Recovery Act. Of that, $2.5 billion was allocated for science
and engineering research and related activities (e.g., education, training, and acquisition and
development of research instrumentation). 2 The majority of the research supported by NSF is
conducted at colleges and universities.

The Recovery Act required recipients to report on use of funds not later than 10 days after the
end of each calendar quarter. The reports must include, among other things, the total amount of
Recovery Act funds received, funds expended, project status, and the number of jobs created or
retained.

During the period February 17, 2009, through June 30, 2011, NSF awarded Cornell $64,615,304
in Recovery Act funds.




1
 Sponsored agreements are externally funded activities in which a formal written agreement (i.e., a grant, contract,
or cooperative agreement) is entered into by the university and the sponsor.
2
 NSF is an independent agency in the executive branch that is responsible for maintaining the academic science and
engineering enterprise of the United States. NSF promotes academic research by providing support to colleges and
universities, industrial laboratories, private research firms, and major research facilities and centers.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                               1



                                                                                      .
Cornell University

Cornell is a private research university located in Ithaca, New York. Founded in 1865, Cornell
comprises 14 colleges and schools. During the period April 1, 2008, through June 30, 2011,
Cornell claimed reimbursement totaling                   for direct costs charged to sponsored
agreements with NSF.

National Astronomy and Ionosphere Center

The NAIC, located in Arecibo, Puerto Rico, facilitates research in the areas of astronomy,
planetary studies, and space and atmospheric sciences by providing unique capabilities and state-
of-the-art instrumentation for data collection and analysis, together with logistical support to
users. The NAIC hosts the Arecibo Observatory, the world’s largest single-dish radio telescope. 3

Cost Principles for Educational Institutions

Principles for determining the allowability of expenditures charged to sponsored agreements
with Cornell and other educational institutions are set forth in 2 CFR pt. 220, Cost Principles for
Educational Institutions (Office of Management and Budget Circular (OMB) A-21),
incorporated by reference at 45 CFR § 74.27(a). These cost principles apply to both direct
costs—expenses incurred solely for the performance of a particular sponsored agreement—and
to facilities and administrative (F&A) costs—indirect expenses incurred for common or joint
objectives of the institution that cannot be readily and specifically identified with a particular
sponsored agreement. 4

HOW WE CONDUCTED THIS REVIEW

Our audit covered direct costs totaling $              charged by Cornell to its sponsored
agreements with NSF during the period April 1, 2008, through June 30, 2011. Specifically, we
reviewed 614 statistically selected sample items from           expenditures, totaling
               . The sample items consisted of supplies, recharge center expenditures, general
expenditures, foreign travel, clerical and administrative salaries, and cost transfers. We also
reviewed 100 judgmentally selected sample items from             other salary expenditures, totaling
            . We calculated fringe benefits and/or F&A costs associated with sample items that
we determined to be unallowable. Therefore, our estimate of unallowable costs includes both
direct costs and applicable fringe benefits and/or F&A costs.




3
 The center is operated by SRI International, the Universities Space Research Association, and Metropolitan
University, under a cooperative agreement with NSF. During our audit period, Cornell operated the center.
4
  Educational institutions are reimbursed for F&A costs through rates negotiated with the Department of Health and
Human Services, Division of Cost Allocation. Institutions with significant numbers of federally funded agreements
frequently have multiple F&A rates applicable to different functions.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                         2
Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodologies, Appendix C contains our sample results and estimates, and
Appendix D contains a detailed summary of the unallowable sample items.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                      FINDINGS

Cornell charged some costs to its NSF sponsored agreements that did not always comply with
applicable Federal requirements. Specifically, we estimate that Cornell charged costs totaling
$794,221 – $660,699 for supplies, $75,312 for recharge centers, $34,085 for general expenses,
$17,544 for foreign travel, and $6,581 for clerical and administrative salaries – as well as
associated fringe benefits and F&A costs that were unallowable. Cornell directly charged costs
that should have been treated as F&A costs and also claimed costs that were unrelated to the
sponsored agreements, calculated incorrectly, unsupported, or not approved by NSF. These
deficiencies occurred because Cornell did not always adhere to its established policies and
procedures for charging costs to NSF sponsored agreements. 5

We also found that Cornell properly accounted for and segregated NSF Recovery Act funds in its
accounting system, and submitted accurate and timely quarterly Recovery Act reports. However,
we found that Cornell charged unallowable costs totaling $11,945 to Recovery Act awards. 6 In
addition, NSF was not liable for pension costs associated with the NAIC sponsored agreement
because it was Cornell’s practice to provide a defined-contribution plan, and as a result there is
no trailing cost.

UNALLOWABLE COSTS

Supplies

Expenditures for office supplies should normally be treated as F&A costs (2 CFR pt. 220,
App. A § F.6.b.(3)). Expenditures for meeting and conference costs, including food, are only
allowable if such costs are specifically and clearly identified in the proposed scope of work and
budget, as approved by NSF (NSF Grants Policy Manual, § 625).

For 22 of the 100 transactions in our sample, Cornell improperly charged supply costs to NSF
sponsored agreements. Specifically, Cornell directly charged 21 supply costs, including claims

5
 Cornell’s Financial Management policy. section 3.18, dated April 2, 2007, states “Cornell University must comply
with the standards set forth in OMB Circular A-21, Cost Principles for Educational Institutions.”
6
    This total ($11,945) is not an estimate. It is the value of the unallowable costs charged to Recovery Act awards.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                                3
for items such as laptops, monitors, and toner cartridges that should have been treated as F&A
costs. In addition, Cornell improperly charged one cost (for food) that was not approved by
NSF. Three of the 22 unallowable transactions, totaling $2,316, were charged to Recovery Act
awards. On the basis of our sample results, we estimated that Cornell improperly claimed
$660,699 for supplies, including related F&A costs.

Recharge Centers

Recharge centers are facilities, such as computer centers, supply stores, animal facilities, and
motor pools, which provide specialized services, and charge the users of those services on the
basis of actual use.

For 15 of the 100 transactions in our sample, Cornell improperly charged recharge center costs to
NSF sponsored agreements. Specifically, Cornell directly charged transactions for office
supplies. However, these costs should have been treated as F&A costs. One of the 15
unallowable transactions, totaling $5,540, was charged to a Recovery Act award. On the basis of
our sample results, we estimated that Cornell improperly claimed $75,312 for recharge center
expenditures, including related F&A costs.

General Expenses

Charges to sponsored agreements are unallowable if incurred outside of the funding period
authorized by the awarding agency (2 CFR pt. 215 § 215.28). A cost is allocable to a sponsored
agreement if the goods or services involved are charged to the sponsored agreement in
accordance with the relative benefits received (2 CFR pt. 220, App. A § C.4). Costs charged to
sponsored agreements must be reasonable (2 CFR pt. 220, App. A §§ C.2 and C.3).

For 32 of the 100 transactions in our sample, Cornell improperly charged general expenses to
NSF sponsored agreements. Specifically, Cornell charged unallowable costs for:

    •    participant support 7 that was not properly documented,

    •    a magazine subscription that did not benefit the sponsored agreement,

    •    visa expenses incurred outside the period covered by the sponsored agreement, and

    •    late fees associated with publishing a thesis.

In addition, Cornell directly charged office supply costs that should have been treated as F&A
costs. Seven of the 32 unallowable transactions, totaling $3,880, were charged to Recovery Act
awards. On the basis of our sample results, we estimated that Cornell improperly claimed
$34,085 in general expenses, including related F&A costs.

7
  Participant support costs are costs paid to (or on behalf of) participants or trainees (not employees) for participation
in meetings, conferences, symposia, and workshops or other training activities.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                                4
Foreign Travel

Maximum per diem rates allowed for foreign areas, as established by the U.S. Department of
State, cover travel beginning on the day the traveler departs an authorized point and ending on
the day the traveler returns to the authorized point (41 CFR § 301-11.9). Laundry expenses
incurred in foreign areas and costs of alcoholic beverages are unallowable (41 CFR § 301-11.31
and 2 CFR pt. 220, App. A § J.3).

For 11 of the 104 transactions in our sample, Cornell improperly charged foreign travel costs to
NSF sponsored agreements. Specifically, Cornell charged costs that (1) exceeded the maximum
allowable per diem rate; (2) were incurred outside the authorized travel dates; (3) were for
unallowable expenses (e.g., alcohol and laundry); (4) were not reasonable; and (5) were not
adequately documented. Two of the 11 unallowable transactions, totaling $209, were charged to
Recovery Act awards. On the basis of our sample results, we estimated that Cornell improperly
claimed $17,544 in foreign travel costs, including related F&A costs.

Clerical and Administrative Salaries

Salaries of clerical and administrative staff should normally be treated as F&A costs (2 CFR pt.
220, App. A § F.6.b.(2)).

For 6 of the 100 transactions in our sample, Cornell improperly charged clerical and
administrative salaries to NSF sponsored agreements. Specifically, Cornell directly charged
salaries for employees that performed tasks such as coordinating meetings and events,
maintaining travel forms, and acting as a general liaison for students. The salaries of these
employees should have been treated as F&A costs. None of the six unallowable transactions
related to Recovery Act awards. Cornell improperly claimed $6,581 in clerical and
administrative salaries, including fringe benefits and related F&A costs.

CONCLUSION

We estimated that Cornell improperly claimed costs totaling $794,221 because it did not adhere
to its policies and procedures for charging costs to NSF sponsored agreements.

                                       RECOMMENDATIONS

We recommend that NSF address and resolve our findings by requiring Cornell to:

    •   refund $794,221 to the Federal Government and

    •   adhere to its established policies and procedures for charging costs to sponsored
        agreements with NSF.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)           5
CORNELL UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Cornell disagreed with our two recommendations;
however, it agreed that some of the costs identified in our draft report were unallowable. 8
Specifically, Cornell agreed that costs associated with 26 of the 86 questioned transactions
should be returned to the Federal Government but stated that the remaining 60 transactions
represented allowable costs that should be accepted. Cornell provided a detailed justification of
its position for each of the 60 transactions. However, Cornell did not provide any new
documentation or other information in its comments that we had not already considered. Cornell
also stated that the limited number of unallowable costs found during our review provides
support that the University has sound policies and procedures in place and is adhering to them.

After reviewing Cornell’s comments on our draft report, we maintain that our findings are valid.
The detailed justifications provided by Cornell did not support that the questioned transactions
complied with applicable Federal requirements. However, we revised our recommended
recovery to reflect additional documentation supporting foreign travel charges that Cornell
provided prior to the receipt of written comments.

Cornell’s comments are included in their entirety as Appendix E.




8
  Cornell agreed that 26 transactions accounting for $23,665 were unallowable. However, Cornell stated that such
figures should not be used to estimate the total unallowable amount charged to its NSF sponsored agreements
because they fall below our threshold for extrapolating such an estimate.


Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                           6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered direct costs totaling $             for supplies, recharge center expenditures,
general expenditures, foreign travel, clerical and administrative salaries, cost transfers, and
other salaries that Cornell charged to its NSF sponsored agreements from April 1, 2008, through
June 30, 2011. We did not evaluate expenditures related to Cornell’s sponsored agreements
with other Federal agencies.

We did not perform an overall assessment of Cornell’s internal control structure.
Rather, we reviewed only the internal controls related to our audit objective.

We performed our fieldwork at Cornell’s offices in Ithaca, New York in September 2012.

METHODOLOGY

To accomplish our objectives, we:

    •   held discussions with Cornell officials and reviewed Cornell’s policies to obtain an
        understanding of Cornell’s procedures for charging costs to its NSF sponsored
        agreements and reporting Recovery Act funds;

    •   held discussions with Cornell officials to obtain an understanding of Cornell’s policy for
        claiming pension liabilities related to NAIC employees,

    •   reviewed Cornell’s approved Cost Accounting Standards Board Disclosure Statement
        (DS-2); 9

    •   obtained from Cornell, a database of      expenditures, totaling $              that it
        charged to     NSF sponsored agreements during the period April 1, 2008, through
        June 30, 2011;

    •   performed analytical test work to ensure that the database was complete and accurate;

    •   from the database of            expenditures, we selected a population of 94,057
        expenditures, totaling $116,373,413, from cost centers generally considered to be at a
        high risk for error, including supplies, recharge center expenditures, general expenditures,
        foreign travel, clerical and administrative salaries, cost transfers, and other salaries;



9
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a DS-2.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                             7
     •   from the population of 94,057 expenditures, we eliminated 45,471 expenditures, totaling
         $2,731,027, which fell below thresholds established for sample selection; 10

     •   for the remaining 48,586 expenditures, totaling                             , we:

             o reviewed 614 statistically selected sample items from 42,607 expenditures
               totaling $             which consisted of supplies, recharge center expenditures,
               general expenditures, foreign travel, clerical and administrative salaries, and cost
               transfers;

             o reviewed 100 judgmentally selected sample items from                            other salary
               expenditures, totaling           and

             o determined which sponsored agreements, related to 714 sample items, met the
               definition of “major project;” 11

     •   discussed the allowability of certain expenditures with NSF officials;

     •   computed fringe benefit and F&A costs related to the unallowable expenditures; and

     •   determined the unallowable costs charged to Recovery Act awards.

See Appendix B for details of our statistical sampling methodologies, Appendix C for our
sample results and estimates, and Appendix D for a detailed summary of the unallowable sample
items.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




10
  We eliminated transactions which were less than the following thresholds: supplies - $100, recharge center
expenditures - $15, general expenditures - $20, foreign travel - $1,000, clerical and administrative salaries - $50, and
cost transfers - $200.
11
  “Major project” is defined as a sponsored agreement that requires an extensive amount of administrative or
clerical support, which is significantly greater than the routine level of such service provided by academic
departments (2 CFR pt. 220, App. A § F.6.b.2). Clerical or administrative salaries may be directly charged for
major projects.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                              8
                  APPENDIX B: STATISTICAL SAMPLING METHODOLOGIES

SUPPLIES

Population

The population consisted of all supply and material expense transactions (and associated F&A
costs) for the period April 1, 2008, through June 30, 2011, charged to NSF sponsored agreements
that were greater than or equal to $100. Supply and material expenditure transactions included
computers, food, durable goods, office supplies and class room supplies.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing        supply and material
transactions greater than or equal to $100, totaling        . 12 The data for these transactions
were extracted from Cornell’s electronic general ledger.

Sample Unit

The sample unit was one supply and material transaction (and associated F&A costs).

Sample Design

We used a stratified random sample. To accomplish this, we separated the sampling frame into
four strata, as follows:

     •   Stratum 1: $100.00 to $700.00 (            transactions, totaling              ).

     •   Stratum 2: $700.01 to $3,000.00            transactions, totaling $                 ).

     •   Stratum 3: $3,000.01 to $24,375.00 (          transactions, totaling                     ).

     •   Stratum 4: all transaction greater than $24,375.01           transactions, totaling $                 ).

Sample Size

We selected a sample of 100 supply and material transactions as follows:

     •   30 transactions from stratum 1,
     •   30 transactions from stratum 2,

12
 The total (          ) does not include F&A costs because these costs were not known until the sample items
were reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                            9
    •   30 transactions from stratum 3, and
    •   10 transactions from stratum 4.

Source of the Random Numbers

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS) statistical software.

Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sample units in the sampling
frame. After generating 90 random numbers for strata 1, 2 and 3 (30 for each stratum), we
selected the corresponding frame items. We selected all 10 transactions in stratum 4 for review.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable costs (including
F&A costs) for which Cornell claimed reimbursement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)       10
RECHARGE CENTERS

Population

The population consisted of all Cornell’s recharge center transactions (and associated F&A
costs) for the period April 1, 2008, through June 30, 2011, charged to NSF sponsored agreements
that were greater than or equal to $15.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing           recharge center
transactions greater than or equal to $15, totaling        . 13 The data for the recharge center
transactions were extracted from Cornell’s electronic general ledger.

Sample Unit

The sample unit was one recharge center transaction (and associated F&A costs).

Sample Design

We used a stratified random sample. To accomplish this, we separated the sampling frame into
three strata as follows:

     •   Stratum 1: $15.00 to $600.00 (          transactions, totaling              ).

     •   Stratum 2: $600.01 to $3,435.00 (         transactions, totaling             ).

     •   Stratum 3: all transactions greater than $3,435.00          transactions, totaling            ).

Sample Size

We selected a sample of 100 recharge center transactions as follows:

     •   45 transactions from stratum 1,
     •   45 transactions from stratum 2, and
     •   10 transactions from stratum 3.

Source of the Random Numbers

We generated the random numbers with the OIG/OAS statistical software.


13
  The total (        does not include F&A costs because these costs were not known until the sample items were
reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                    11



                                                                                .
Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sampling frame. After generating
90 random numbers for strata 1 and 2 (45 for each stratum), we selected the corresponding frame
items. We selected for review all 10 recharge center transactions in stratum 3.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable recharge center
costs (including F&A costs) for which Cornell claimed reimbursement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)     12
GENERAL EXPENSES

Population

The population consisted of all Cornell’s general expense transactions (and associated F&A
costs) for the period April 1, 2008, through June 30, 2011, charged to NSF sponsored agreements
that were greater than or equal to $20.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing       general expense
                                                            14
transactions greater than or equal to $20, totaling        . The data for other, general expense
transactions were extracted from Cornell’s electronic general ledger.

Sample Unit

The sample unit was one general expense transaction (and associated F&A costs).

Sample Design

We used a simple random sample.

Sample Size

We selected a sample size of 100 general expense transactions.

Source of the Random Numbers

We generated the random numbers with the OIG/OAS statistical software.

Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sampling frame. After generating
100 random numbers, we selected the corresponding frame items.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable general expense
costs (including F&A costs) for which Cornell claimed reimbursement.



14
  The total (       ) does not include F&A costs because these costs were not known until the sample items were
reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                     13
FOREIGN TRAVEL

Population

The population consisted of all Cornell’s foreign travel transactions (and associated F&A costs)
for the period April 1, 2008, through June 30, 2011, charged to NSF sponsored agreements that
were greater than or equal to $1000.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing           foreign travel
transactions greater than or equal to $1,000, totaling          . 15 The data for foreign travel
transactions were extracted from Cornell’s electronic general ledger.

Sample Unit

The sample unit was one foreign travel transaction (and associated F&A costs).

Sample Design

We used a stratified random sample. To accomplish this, we separated the sampling frame into
two strata as follows:

     •   Stratum 1: $1,000.00 to $16,000.00 (            transactions, totaling                ).

     •   Stratum 2: all transactions greater than $16,000.00         transactions, totaling              ).

Sample Size

We selected a sample of 104 foreign travel transactions as follows:

     •   100 transactions from stratum 1, and
     •   4 transactions from stratum 2.

Source of the Random Numbers

We generated the random numbers with the OIG/OAS statistical software.




15
 The total (           does not include F&A costs because these costs were not known until the sample items
were reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                      14



                                                                                 .
Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sampling frame. After generating
100 random numbers for stratum 1, we selected the corresponding frame items. We selected for
review all 4 foreign travel transactions in stratum 2.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable foreign travel
costs (including F&A costs) for which Cornell claimed reimbursement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)     15
CLERICAL AND ADMINISTRATIVE SALARIES

Population

The population consisted of all clerical and administrative salaries, (including any related fringe
benefits and associated F&A costs) for the period April 1, 2008, through June 30, 2011, charged
to NSF sponsored agreements that were greater than $50.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing           clerical and
administrative salary transactions, greater than $50, totaling $        . 16 The data for clerical
and administrative salaries was extracted from Cornell’s electronic general ledger and payroll
system.

Sample Unit

The sample unit was one clerical or administrative salary transaction (including any related
fringe benefits and associated F&A costs).

Sample Design

We used a stratified random sample. To accomplish this, we separated the sampling frame into
two strata as follows:

     •   Stratum 1: $50.00 to $1,000.00               transactions, totaling                 .

     •   Stratum 2: all transactions greater than $1,000.00                transactions, totaling
                    ).

Sample Size

We selected a sample of 100 clerical and administrative salary transactions as follows:

     •   50 transactions from stratum 1 and
     •   50 transactions from stratum 2.




16
  The total             does not include fringe benefits or F&A costs because these costs were not known until the
sample items were reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                        16



                                                                                   .
Source of the Random Numbers

We generated the random numbers with the OIG/OAS statistical software.

Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sampling frame. After generating
100 random numbers for strata 1 and 2 (50 for each stratum), we selected the corresponding
frame items.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable clerical and
administrative salary cost (including fringe benefits and benefits and associated F&A costs) for
which Cornell claimed reimbursement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)      17



                                                                               .
COST TRANSFERS

Population

The population consisted of all Cornell’s positive cost transfers (including any related fringe
benefits and associated F&A costs) for the period April 1, 2008, through June 30, 2011, charged
to NSF sponsored agreements that were greater than $200.

Sampling Frame

The sampling frame consisted of an Excel spreadsheet containing              cost transfers, greater
than $200, totaling             . 17 The data for cost transfers was extracted from Cornell’s
electronic general ledger and payroll system.

Sample Unit

The sample unit was one cost transfer (including any related fringe benefits and associated F&A
costs).

Sample Design

We used a stratified random sample. To accomplish this, we separated the sampling frame into
three strata as follows:

     •   Stratum 1: $200.00 to $9,000.00              transactions, totaling                  ).

     •   Stratum 2: $9,000.01 to $488,609.42 (            transactions, totaling                   ).

     •   Stratum 3: all transactions greater than $488,609.42           transactions, totaling


Sample Size

We selected a sample of 110 cost transfers as follows:

     •   50 transactions from stratum 1,
     •   50 transactions from stratum 2, and
     •   10 transactions from stratum 3.




17
 The total ($           does not include F&A costs because these costs were not known until the sample items
were reviewed.

Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                       18



                                                                                .
Source of the Random Numbers

We generated the random numbers with the OIG/OAS statistical software.

Method of Selecting Sample Items

We sorted (ascending order) and consecutively numbered the sampling frame. After generating
100 random numbers for strata 1 and 2 (50 for each stratum), we selected the corresponding
frame items. We selected for review all 10 cost transfers in stratum 3.

Estimation Methodology

We used the OIG/OAS statistical software to calculate our estimates. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of unallowable cost transfers
(including fringe benefits and associated F&A costs) for which Cornell claimed reimbursement.




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)     19



                                                                               .
                         APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                                         SUPPLIES

                                               Sample Details and Results

                    No. of                                                           No. of            Value of
                 Transactions         Value of       Sample       Value of        Unallowable        Unallowable
    Stratum       in Frame             Frame          Size        Sample          Transactions       Transactions
        1                                               30           $10,062        12                        $3,800
        2                                               30            60,585         8                        19,672
        3                                               30           303,085         2                       35,242a
        4                                               10         2,014,289         0                              0
     Total                                             100       $2,388,021         22                     $58,714b
a
 We did not estimate the value of unallowable transactions related to stratum 3 because it contained only two errors.
We added the value of the two errors to the lower limit to calculate the total supply disallowance of $660,699.
b
    The value of unallowable transactions includes associated F&A costs.

                                       Estimated Unallowable Costs
                         (Limits Calculated for the 90-Percent Confidence Interval)

                                    Point Estimate                         $ 1,018,156
                                     Lower Limit                           $ 625,457
                                     Upper Limit                           $ 1,410,856




    Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)                       20
                                                 RECHARGE CENTERS

                                                Sample Details and Results

                     No. of                                                       No. of         Value of
                  Transactions        Value of       Sample       Value of     Unallowable     Unallowable
    Stratum        in Frame            Frame          Size        Sample       Transactions    Transactions
         1                                              45           $8,688            6              $708
         2                                              45           97,933            8             21,455
         3                                              10           93,817            1              5,540
      Total                                             100        $200,438            15          $27,703a
a
    The value of unallowable transactions includes associated F&A costs.



                                       Estimated Unallowable Costs
                         (Limits Calculated for the 90-Percent Confidence Interval)

                                     Point Estimate                        $ 136,103
                                      Lower Limit                          $ 75,312
                                      Upper Limit                          $ 196,894




    Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)             21
                                               GENERAL EXPENSES

                                              Sample Details and Results

         No. of                                                            No. of        Value of
      Transactions           Value of       Sample        Value of      Unallowable    Unallowable
       in Frame               Frame          Size         Sample        Transactions   Transactions
                              $                100        $171,022            32           $15,827a
        a
            The value of unallowable transactions includes associated F&A costs.



                                     Estimated Unallowable Costs
                       (Limits Calculated for the 90-Percent Confidence Interval)

                                   Point Estimate                          $50,964
                                    Lower Limit                            $34,085
                                    Upper Limit                            $67,842




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)              22
                                                   FOREIGN TRAVEL

                                                Sample Details and Results

                    No. of                                                        No. of         Value of
                 Transactions         Value of       Sample        Value of    Unallowable     Unallowable
    Stratum       in Frame             Frame          Size         Sample      Transactions    Transactions
        1                                               100        $326,194       9                  $3,612
        2                                                4          158,565       2                   2,822
      Total                                             104        $484,759       11                $6,434a
a
    The value of unallowable transactions includes associated F&A costs.



                                       Estimated Unallowable Costs
                         (Limits Calculated for the 90-Percent Confidence Interval)

                                     Point Estimate                        $ 50,855
                                      Lower Limit                          $ 17,544
                                      Upper Limit                           $ 84,166




    Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)             23
Appendix D is redacted in its entirety.
                    APPENDIX E: CORNELL UNIVERSITY COMMENTS




Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   30
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   31
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   32



                                                                               .
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   33
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   34
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   35



                                                                               .
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   36
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   37
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   38



                                                                               .
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   39



                                                                               .
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   40



                                                                               .
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   41
Cornell University Sponsored Agreements with National Science Foundation (A-02-12-02004)   42
